COQCKLE

Legal Briefs

Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 20-1767

SARASOTA WINE MARKET, LLC, et al.,
Petitioners,
v.
ERIC S. SCHMITT,
ATTORNEY GENERAL OF MISSOURI, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE NATIONAL ASSOCIATION OF WINE RETAILERS IN SUPPORT OF PETITIONERS
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 3694 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 14th day of July, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

Affiant

    
 

   

é GENERAL NOTARY-State of Nebraska
i RENEE J. GOSS

seat abe ty Comm. Exp. September 5, 2023

 

 

Notary Public
41207
